                                                               ig
                                           April 2007 Semiannual Report




TABLE OF CONTENTS
THE OFFICE OF INSPECTOR GENERAL ........................................................................ 1

COMMISSION’S TOP MANAGEMENT CHALLENGES................................................. 3
Management Challenge: Competitive Sourcing ................................................................... 3
Management Challenge: Improved Financial Performance ................................................. 3
Management Challenge: Budget and Performance Integration ............................................ 4
Management Challenge: Expanded Electronic Government................................................ 4
Management Challenge: Strategic Management of Human Capital..................................... 5

COMMISSION PROFILE..................................................................................................... 6

AUDITS ............................................................................................................................... 8
Reports Issued During this Period ........................................................................................ 8
On-Going Audits................................................................................................................... 8
Audit Follow–Up .................................................................................................................. 9

INVESTIGATIONS ............................................................................................................ 10
 Summary of Investigative Activity..................................................................................... 10

OTHER ACTIVITIES ......................................................................................................... 11
Regulatory Review.............................................................................................................. 11
Directives Review............................................................................................................... 11
Government Accountability Office (GAO) ........................................................................ 12
Management Assistance...................................................................................................... 13
Other ................................................................................................................................... 14
Liaison Activities ................................................................................................................ 14

REPORTING REQUIREMENTS INDEX.......................................................................... 16
Table 1: AUDIT REPORTS WITH QUESTIONED COSTS ............................................ 17
Table 2: AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS
         BE PUT TO BETTER USE ................................................................................ 18

GLOSSARY ........................................................................................................................ 19




                                                                   i
                                          ig
                             April 2007 Semiannual Report




              THE OFFICE OF INSPECTOR GENERAL
The Commission established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act. The OIG is headed by an Inspector General (IG),
who reports directly to the Chairman and Congress. As set forth in the IG Act, as amended,
the IG has the authority and responsibility to conduct objective and independent audits,
reviews and investigations of the agency’s programs and operations. Specifically, the IG is
responsible for promoting economy, efficiency, and effectiveness within the Commission;
preventing and detecting fraud, waste, abuse and mismanagement in the Commission’s
programs and operations; providing comments and recommendations on proposed
legislation, regulations and procedures affecting the Commission; and keeping the Chairman
and the Congress fully and currently informed of problems in agency programs and
operations.

As shown in the organizational chart, the OIG was allocated four staff years in fiscal year
2007 (October 1, 2006- September 30, 2007, “FY 2007”). Since 2005, two positions have
been vacant and have not been filled. The Inspector General retired on October 31, 2005 and
the Paralegal Specialist left the Commission on November 27, 2005. After the staff
departures, the Assistant Inspector General for Audit and Counsel have been performing the
necessary duties to meet the requirements of the Inspector General Act.


                  Office of Inspector General: Organization
 Full-time
     Inspector General
             Vacant



                                                                              Part-time
    Assistant Inspector            Paralegal Specialist               Counsel to the
    General for Audit                    Vacant                     Inspector General




                                             1
                                   ig
                       April 2007 Semiannual Report




                          OIG Points of Contact

Phone          202-205-2210                       Hotline:
Fax            202-205-1859                       1-800-500-0333
OIG internet   www.usitc.gov/oig                  OIGHotline@usitc.gov




                                    2
                                           ig
                              April 2007 Semiannual Report




     COMMISSION’S TOP MANAGEMENT CHALLENGES

The “Top Management Challenges” facing the Commission as identified by the OIG and
recent OIG activities relating to each challenge are discussed below. The OIG has been
helping the Commission to address some of these challenges.

The Commission’s top management challenges are within the framework of the President’s
Management Agenda (PMA) that include five Government-wide initiatives:
(1) Competitive Sourcing, (2) Improved Financial Performance, (3) Budget and Performance
Integration, (4) Expanded Electronic Government, and (5) Strategic Management of Human
Capital.

Because the Commission was not included among the PMA agencies and has not established
PMA deliverables and time lines, neither the Commission nor the OIG has attempted to score
its PMA progress. However, the Commission’s budget justifications, as well as its strategic
planning documents, expressed the Commission’s commitment to the spirit of the five PMA
initiatives. The Commission’s adherence to that spirit is discussed below.

Management Challenge: Competitive Sourcing. To improve the performance and
efficiency of activities that are commercial in nature, the PMA calls for departments and
agencies to compare their commercial activities with those of the private sector and
determine whether the private sector or government employees should perform the activity.
The intended outcome is better service at a lower price.

The Commission has stated that its permanent staff is devoted to core agency investigative
functions and recurring support activities where the cost of outsourcing is less competitive.
The Commission contracted for mailroom and general labor services, cleaning and building
maintenance services, and security services. In addition, other services are acquired on an
as-needed basis, such as virtually all equipment maintenance services, application systems
design and development, and certain financial services.

Management Challenge: Improved Financial Performance. This initiative is to improve
the quality and timeliness of financial information so that it can be used to reduce waste,
fraud, and abuse and manage federal programs more effectively. During this reporting
period, the OIG audited the Commission’s financial statements for fiscal years 2006 and
2005 and issued an unqualified opinion. The audit did not detect internal control

                                              3
                                            ig
                               April 2007 Semiannual Report




deficiencies deemed to be reportable conditions or material weaknesses. However, the
Commission needs to: strengthen controls and oversight of procurement activity; issue
guidance for controlling fixed assets and accountable property; improve procedures for
depositing funds; and issue guidance on taxing employee awards. The OIG issued a draft
report on these issues, and at this time, the OIG is working with the Commission to obtain
concurrence with all the reported findings and recommendations.

Management Challenge: Budget and Performance Integration. This initiative is to
ensure each program’s purpose is clear, well designed to achieve its objectives, and
effectively managed to provide the best value for taxpayers. Performance information will
be used to (1) end or reform programs that either cannot demonstrate positive results or are
clearly failing and (2) put resources in programs that can prove they are successful.

The Commission structured its budget formulation and execution activities to permit the
allocation of virtually all costs to one of the five operations set forth in the Strategic Plan.
All indirect costs are allocated to the Commission’s five operations with the exception of the
OIG activities. These are reported as unallocated indirect costs. The Commission also
presents data using a budget object classification methodology. Budget integration efforts
have allowed Commission managers to track changes in workload and compare them to
changes in cost.

The performance goals and indicators in the Commission’s Annual Performance Plan also
provide measures by which the agency’s activities can be assessed. During this reporting
period, the Commission submitted to Congress the agency’s Performance and Accountability
Report, which provided program performance results for FY 2006.

Management Challenge: Expanded Electronic Government. This initiative is designed to
bring more services to the American citizen over the Internet, make government more
efficient, and improve information technology (IT) management throughout the Executive
Branch.

Every Commission business process—investigations, research, trade information services,
trade policy support, and administration—depends on reliable and effective information
systems and services. The information that the Commission processes and generates is a
valuable asset that management must protect from loss, misuse, unauthorized access, or
modification.




                                               4
                                           ig
                              April 2007 Semiannual Report




The Commission has been working on redesigning its website and making improvements to
its Electronic Document Information System. Furthermore, the Commission has been
making progress in strengthening its IT security program. However, further work is needed.

The OIG ‘s Federal Information Security Management Act (FISMA) audit for FY 2006,
found the Commission fully implemented 10 of 23 recommendations from the prior year’s
audit and 9 remained open. The audit also found three additional weaknesses. These
weaknesses relate to use of wireless technologies, certification and accreditation of major
systems, and the system change control process.

Of the four remaining recommendations from the FY 2005 FISMA audit, the OIG is
currently concluding its work on their status. The OIG rescheduled audit follow-up work on
these recommendations until after the FY 2006 FISMA audit because the recommendations
were associated with improvements the Commission was making at the time of the audit.

Management Challenge: Strategic Management of Human Capital. Agencies must
strategically align human resources to support the organization’s policy and program goals.
Since a substantial number of federal employees will be eligible to retire within the next few
years, agencies need to hire, develop, and retain skilled staff to ensure continuity of
operations.

The Commission’s largest budget item is salaries and personnel benefits, which account for
approximately 75 percent of the budget. The Commission maintains an expert staff of
professional international trade and nomenclature analysts, investigators, attorneys,
economists, computer specialists and administrative support personnel.

The Commission has undertaken several initiatives in support of an overall human capital
strategy. The Commission developed a Strategic Human Capital Management Plan which is
intended to be an essential component of the organization’s strategic planning. It serves to:
define human capital goals, summarize the projected changes in the workforce assets, and
identify strategies to achieve the human capital goals and an action plan for implementing the
strategies. Additionally, the Commission developed a vision of future workforce needs.




                                              5
                                            ig
                              April 2007 Semiannual Report




                            COMMISSION PROFILE
                                     http://www.usitc.gov


The Commission is an independent, nonpartisan, quasi–judicial federal agency established to
provide trade expertise to both the Legislative and Executive Branches of government. Its
mission is to: administer U.S. trade remedy laws within its mandate in a fair and objective
manner; provide the President, the U.S. Trade Representative (USTR) and the Congress with
independent, quality analysis, information, and support on matters of tariffs and international
trade and competitiveness; and maintain the Harmonized Tariff Schedule of the U.S. In so
doing, the Commission serves the public by implementing U.S. law and contributing to the
development of sound and informed U.S. trade policy. Major Commission activities include:

       •   Import Injury Investigations—The Commission makes determinations in a
           variety of import injury investigations, primarily antidumping and countervailing
           duty (AD/CVD) investigations concerning the effects of unfairly traded imports
           on a U.S. industry.
       •   Intellectual Property–Based Investigations—The Commission
           adjudicates complaints brought by domestic industries under section 337 of the
           Tariff Act of 1930 that allege infringement of U.S. intellectual property rights and
           other unfair methods of competition by imported goods.
       •   Industry and Economic Analysis—The Commission’s industry and
           economic analysis program consists of probable economic effects investigations
           under section 131 of the Trade Act of 1974 or section 2104 of the Trade Act of
           2002; analysis of trade and competitiveness issues under section 332 of the Tariff
           Act of 1930; and independent assessments on a wide range of emerging trade
           issues.
       •   Trade Information Services—The Commission’s trade information services
           include such activities as legislative reports; maintenance of the Harmonized
           Tariff Schedule; Schedule XX; U.S. Schedule of Services Commitments under the
           General Agreement on Tariffs and Trade/World Trade Organization; preparation
           of U.S. submissions to the Integrated Database of the World Trade Organization;
           and certain other information gathering, processing, and dissemination activities.




                                              6
                                           ig
                              April 2007 Semiannual Report




       •   Trade Policy Support—The Commission supports the formulation of U.S.
           trade policy, providing objective input to both the Executive Branch and the
           Congress on the basis of the distinctive expertise of its staff.

The Commission consists of six Commissioners, appointed by the President and confirmed
by the Senate, who serve one term of nine years, unless appointed to fill an unexpired term.
No more than three Commissioners may be of the same political party. The Chairman and
Vice Chairman are designated by the President and serve a 2–year statutory term. The
Chairman is responsible, within statutory limits, for the administrative functions of the
Commission.

There are six Commissioners. During this reporting period, two Commissioners, Stephen
Koplan and Jennifer A. Hillman left after expiration of their terms. Two new Commissioners
replaced them. Irving A. Williamson was sworn in as a member of the Commission on
February 7, 2007, for a term expiring on June 16, 2014. Dean A. Pinkert was sworn in as a
member of the Commission on February 26, 2007, for a term expiring on December 16,
2015. The Chairman is Daniel R. Pearson and the Vice Chairman is Shara L. Aranoff.
The other Commissioners are Charlotte R. Lane and Deanna Tanner Okun.

For FY 2007, the Commission’s expenditure plan totals $62,408,000. The FY 2007 staffing
plan is for 398 permanent positions and 13 term/temporary positions for a total of 411
positions. All employees are located in one building at 500 E Street, SW, Washington, DC.




                                              7
                                           ig
                              April 2007 Semiannual Report




                                        AUDITS


Reports Issued During this Period

The OIG issued one audit report during this period:

USITC's Financial Statements for Fiscal Years 2006 and 2005 and the Commission's
Management Challenges
(OIG-AR-01-07, November 14, 2006 http://www.usitc.gov/oig/ OIG-AR-01-07.pdf)

An Independent Public Accountant (IPA), working under our supervision, performed an
audit of the Commission's fiscal years 2006 and 2005 financial statements. The IPA reported
no material weaknesses and issued an unqualified opinion on the financial statements.

As part of the audit, we reported on the top management challenges facing the Commission
as identified by the OIG, as well as recent OIG activities relating to each challenge. These
five challenges—Competitive Sourcing; Improved Financial Performance;
Budget and Performance Integration; Expanded Electronic Government; and Strategic
Management of Human Capital—are discussed on pages 3 to 5.



On-Going Audits

During this reporting period, we are in the process of completing the following two audits:

Internal Controls Over the Commission’s Operations

We conducted this work as part of our audit of the Commission’s financial statements for
fiscal years 2006 and 2005 (OIG-AR-01-07, November 14, 2006). We are in the process of
obtaining management concurrence with the findings and recommendations.




                                              8
                                            ig
                              April 2007 Semiannual Report




Technical Review of the Information Technology Systems

We are concluding our work on the status of the remaining four recommendations from the
FY 2005 FISMA audit. Because the recommendations were closely linked to improvements
the Commission was making during our FY 2006 FISMA audit, we rescheduled our review
of the applicable areas until the improvements were in place.



Audit Follow–Up

Pending recommended actions remain open on two audits reported in the previous
semiannual report:

Evaluation of the U.S. International Trade Commission’s Fiscal Year 2006 Information
Security Program and Practices
(OIG-AR-03-06, September 29, 2006 http://www.usitc.gov/oig/ OIG-AR-03-06.pdf)

Our annual independent audit of the Commission’s information security program and
practices resulted in three new recommendations and identifying nine open prior year
recommendations. The Commission completed action on one of the 12 recommendations.

Due to the sensitive content, we have limited distribution of this and prior information
security annual reports.


Evaluation of the Commission’s Records Management
(OIG-AR-05-00, March 7, 2001 http://www.usitc.gov/oig/OIG-AR-05-00.pdf ).

The Commission agreed with all 22 recommendations, implemented 21, but has yet to
identify records scanned by the Electronic Document Information System so they can be
disposed.

The Commission’s Records Manager and Office of Information Technology Services have
not been able to coordinate their efforts and take the appropriate action to satisfy this
recommendation.




                                              9
                                          ig
                             April 2007 Semiannual Report




                               INVESTIGATIONS

The OIG investigates possible violations of laws, rules, and regulations, mismanagement,
abuse of authority, and waste of funds. These investigations may result either from our own
audit, inspection and other work or in response to allegations, complaints, and information
received from employees, other government agencies, contractors, and other concerned
individuals. The objective of this program is to ensure the integrity of the Commission and
assure individuals fair, impartial, and independent investigations.



Summary of Investigative Activity

During this reporting period, one case was open. A summary of investigative activity is
presented below.


 Case Workload                   Referrals                   Investigative Results
                                 Processed


                            Received from
 Open (09/30/06)    1                             1       Referrals for Prosecution       0
                            Hotline
                            Referred to OIG
                                                          Referrals Declined for
 Initiated          0       Audit & Inspection    0                                       0
                                                          Prosecution
                            Division
                            Referred to
 Closed             0                             0       Administrative Action           0
                            Commission
                            Referred to other
 Open (03/31/07)    1                             0
                            Federal Agencies
                            Evaluated but no
                            Investigation         1
                            Initiated




                                             10
                                          ig
                             April 2007 Semiannual Report




                              OTHER ACTIVITIES

Regulatory Review

During this reporting period, the OIG reviewed drafts of proposed rules and notices. The
OIG provided comments to the Commission on proposed rules: 19 Code of Federal
Regulation (CFR) Part 208 – Investigations Relating to Commercial Availability Under the
African Growth and Opportunity Act. The rules were published in 72 Federal Register 8626,
on February 27, 2007. In addition, the OIG commented on the draft revisions to the
Commission’s Privacy Act Notices.



Directives Review

During this reporting period, the Commission distributed two draft directives to the OIG for
review and comment. Also, the Commission’s Travel and Transportation Manager provided
the OIG with a copy of the draft revision to the travel management handbook for review and
comment.

Performance Management System Directive
The OIG’s review of the draft performance management system directive raised concerns
that it contained provisions that affected OIG independence. The Inspector General Act
created the OIG as an independent unit to their respective agency. The OIG provided
applicable provisions of the law and recommended revisions to the draft performance
management system directive to bring the directive in compliance with the Inspector General
Act. In addition, the OIG provided comments and suggested revisions to the definitions,
responsibilities, requirements, ratings computation method, and unusual situations provisions
of the draft directive, as well as the ancillary documents.




                                            11
                                           ig
                              April 2007 Semiannual Report




Emergency Action Plan Directive
The OIG compared the draft emergency action plan directive against guidance obtained off
the Department of Homeland Security (DHS) website at www.ready.gov and the Red Cross
website. The OIG suggested changes to the draft directive to conform to these resources.

Revision to the Travel Management Handbook
The OIG commented that the handbook duplicated the Federal Travel Regulations (“FTR”).
The OIG suggested that the travel management handbook could be revised to supplement the
FTR with provisions that are Commission specific or not addressed in the FTR. In addition,
the OIG suggested that the draft travel management handbook be revised to be more concise,
user friendly, and allow for more flexibility because unforeseen circumstances may arise in
the future.



Government Accountability Office (GAO)

The Inspector General Act states that each Inspector General shall give particular regard to
the activities of the Comptroller General of the United States with a view toward avoiding
duplication and ensuring effective coordination and cooperation. During this period, the
GAO issued four reports in which Commission activity was reported and none contained a
recommendation for the Commission. The four reports are:

International Trade: Customs' Revised Bonding Policy Reduces Risk of Uncollected
Duties, but Concerns about Uneven Implementation and Effects Remain (GAO-07-50,
October 18, 2006)

GAO China Antidumping Database (GAO-06-652sp). This e-supplement is a
companion to GAO's report U.S.-China Trade: Eliminating Nonmarket Economy
Methodology Would Lower Antidumping Duties for Some Chinese Companies (GAO-
06-231, January 10, 2006)

Intellectual Property: Strategy for Targeting Organized Piracy (STOP) Requires
Changes for Long-term Success (GAO-07-74, November 8, 2006)

World Trade Organization: Congress Faces Key Decisions as Efforts to Reach Doha
Agreement Intensify (GAO-07-379, March 5, 2007)



                                             12
                                            ig
                              April 2007 Semiannual Report




Management Assistance

Guidance on Use of Appropriated Official Reception and Representation Funds
The OIG provided guidance to the Commission on using appropriated official reception and
representation funds for food and refreshments at receptions for departing Commissioners.
As a general rule, appropriated funds may not be used for purchase of food, refreshments,
entertainment, or gifts, except when specifically authorized by statute and also authorized or
approved by proper administrative officers. According to GAO, an agency may use
appropriated official reception and representation funds to cover expenses incurred in
connection with official agency events, typically characterized by a mixed ceremonial, social
and/or business purpose, and hosted in a formal sense by high level agency officials.

Guidance on Commission Employees Attendance at Sponsored Events
The Commission’s Ethics Officer consulted with the OIG Counsel on an Administrative
Order permitting Commission employees to attend sponsored events. The Order does not
apply when the employees are directly involved in or are supervising substantive work on
Commission matters involving the event's sponsor. Usually, attendance by these employees
might put them at risk for administrative sanctions under 5 CFR 2635.202(a) or
2635.101(b)(14). OIG Counsel suggested that the provisions of 5 CFR Sec. 2635.204
(g)(3)(i) be incorporated in Order. That regulation permits the employee's participation if it
may be determined to be in the interest of the agency and there is a written finding by the
agency designee that the agency's interest in the employee's participation in the event
outweighs the concern that acceptance of the gift of free attendance may or may appear to
improperly influence the employee in the performance of his official duties.

Personally Identifiable Information Analysis Survey
During this reporting period, the OIG provided the Commission’s CIO office with personally
identifiable information analysis surveys for the OIG’s audits, investigations, and personnel
systems.




                                              13
                                            ig
                              April 2007 Semiannual Report




Other

Records Management
Counsel serves as the OIG representative to the Commission’s records management revision
team. Pursuant to the OIG’s report on Evaluation of the Commission’s Record Management
(OIG-AR-05-00, March 7, 2001), the Commission assembled a team to revise the agency’s
records management program.

Counsel also prepared a new records disposition schedule for the OIG, which was submitted
to the National Archives and Records Administration (NARA) for acceptance. During this
reporting period, Counsel has been working with a NARA representative to obtain approval
of the OIG records schedule.

Year in Review
The OIG provided a submission for the Commission’s “Fiscal Year 2006 Year in Review.”
The submission described OIG accomplishments which included: audits, investigations,
management assistance, and responses to the Office of Management and Budget.



Liaison Activities

The Assistant Inspector General for Audit participated in activities sponsored by the
Executive Council on Integrity and Efficiency (ECIE). Established by Executive Order
12805 on May 11, 1992, the ECIE is chaired by the Office of Management and Budget and,
in addition to the Inspectors General, includes representatives from the Office of Personnel
Management, the Office of Government Ethics, the Office of Special Counsel, and the
Federal Bureau of Investigation. The ECIE’s functions and responsibilities are to promote
integrity and efficiency and to detect and prevent fraud, waste and abuse in federal programs.

The Assistant Inspector General for Audit is an active member of the Federal Audit
Executive Council and the Financial Statement Audit Network. The functions and
responsibilities of these groups are to anticipate potential changes and share experiences
related to auditing.




                                              14
                                          ig
                             April 2007 Semiannual Report




The OIG Counsel is a member of the Council of Counsels to the Inspectors General (CCIG).
During this reporting period, her term ended as one of the Vice-President’s of this
organization. Her duties included recording the minutes of the monthly meetings and
assisting with facility arrangements.

Also, Counsel is a member of the Inter-agency Ethics Council, which is composed of Federal
employees involved in ethics issues. Counsel provides a monthly report to the Council on
Federal Court cases involving ethics issues.

Furthermore, the OIG Counsel is a member of the Association of Directors of Investigations,
which consists of Federal OIG Investigators.

In addition to her professional contributions to the federal OIG community, the OIG Counsel
is a volunteer tutor for a second grade elementary school student. The Commission adopted
Amidon Elementary School, a neighboring District of Columbia public school, for which
Commission employees voluntarily tutor students in a variety of subjects.




                                            15
                                          ig
                             April 2007 Semiannual Report




                REPORTING REQUIREMENTS INDEX
The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
semiannual reports.
CITATION          REPORTING REQUIREMENTS                                         PAGE
Section 4(a)(2)   Recommendations concerning the impact of such legislation
                  or regulations on the economy and efficiency in the
                  administration of programs and operations administered or
                  financed by the Commission                                     11
Section 5(a)(1)   Description of significant problems, abuses, and deficiencies
                  relating to the administration of programs and operations      None
Section 5(a)(2)   Description of the recommendations for corrective action
                  made with respect to significant problems, abuses, or
                  deficiencies                                                   None
Section 5(a)(3)   Identification of each significant recommendation described
                  in previous semiannual reports on which corrective action has
                  not been completed                                             9
Section 5(a)(4)   Summary of matters referred to prosecutive authorities and
                  the prosecutions and convictions which have resulted           None
Section 5(a)(5)   Summary of each report made to the head of the
                  establishment under which information or assistance was
                  unreasonably refused                                           None
Section 5(a)(6)   Listing of each audit report                                   8
Section 5(a)(7)   Summary of each significant report                             8
Section 5(a)(8)   Statistical tables showing Audit Reports–Questioned Costs      17
Section 5(a)(9)   Statistical tables showing Audit Reports–Funds Put to Better
                  Use                                                            18
Section 5(a)(10) Summary of each audit report issued before the
                  commencement of the reporting period for which no
                  management decision has been made by the end of the
                  reporting period                                               None
Section 5(a)(11) Description and explanation of the reasons for any significant
                  revised management decisions                                   None
Section 5(a)(12) Information concerning any significant management decision
                  with which the Inspector General is in disagreement            None



                                            16
                                             ig
                              April 2007 Semiannual Report




     Table 1: AUDIT REPORTS WITH QUESTIONED COSTS

                                                                    Dollar Value

                                                      Number of Questioned Unsupported
                                                       Reports    Costs       Costs

A.    For which no management decision has been made
      by the commencement of the period                     0       0              0

B.    Which were issued during the reporting period         0       0              0

      Subtotals (A + B)                                     0       0              0

C.    For which a management decision was made during
      the reporting period

      (i) Dollar value of disallowed costs                  0       0              0

      (ii) Dollar value of costs not disallowed             0       0              0

D.    For which no management decision has been made
      by the end of the reporting period                    0       0              0

E.    Reports for which no management decision was
      made within six months of issuance                    0       0              0




                                             17
                                         ig
                            April 2007 Semiannual Report




     Table 2: AUDIT REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE
                                                        Number of   Dollar
                                                         Reports    Value

A.    For which no management decision has been made
      by the commencement of the period                     0         0

B.    Which were issued during the reporting period         0         0

      Subtotals (A + B)                                     0         0

C.    For which a management decision was made during
      the reporting period

      (i) Dollar value of recommendations that were
          agreed to by management                           0         0

      (ii) Dollar value of recommendations that were
       not agreed to by management                          0         0

D.    For which no management decision has been made
      by the end of the reporting period                    0         0

E.    Reports for which no management decision was
      made within six months of issuance                    0         0




                                           18
                                            ig
                              April 2007 Semiannual Report




                                      GLOSSARY
The following definitions apply to the terms used in this report.

Questioned cost             means a cost that is questioned because of: (1) an alleged
                            violation of a provision of a law, regulation, contract, grant,
                            cooperative agreement, or other agreement or document
                            governing the expenditure of funds; (2) a finding that, at the time
                            of the audit, such cost is not supported by adequate
                            documentation; or (3) a finding that the expenditure of funds for
                            the intended purpose is unnecessary or unreasonable.

Unsupported cost            means a cost that is questioned because at the time of the audit,
                            such cost is not supported by adequate documentation.

Disallowed cost             means a questioned cost that management, in a management
                            decision, has sustained or agreed should not be charged to the
                            Government.

Recommendations that        means a recommendation that funds could be used more
funds be put to better      efficiently if management of an establishment took actions to
use                         implement and complete the recommendation, including: (1)
                            reduction in outlays; (2) deobligation of funds from programs or
                            operations; (3) withdrawal of interest subsidy costs on loans or
                            loan guarantees, insurance, or bonds; (4) costs not incurred by
                            implementing recommended improvements related to the
                            operations of the establishment, a contractor or grantee; (5)
                            avoidance of unnecessary expenditures noted in preaward reviews
                            of contract or grant agreements; or (6) any other savings which
                            are specifically identified.




                                              19
